®T]

CTD

No/ki

§004

IN THE
SUPREME COURT OF THE UNITED STATES

R>,
!? 44 !$ k
p. -.cr; hu\
r\ i.n;
c if- ^
i

BO DANIEL SHAFER

— PETITIONER

(Your Name)

vs.
THE STATE OF TEXAS

■

FILED
JUN 1 9 2021
§^RC|M°EFr^L^K

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

UNITED^STATES^DISTRICT^COURT OFR THE SOUTHERN DISTRICT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

BO DANIEL SHAFER #1988007
(Your Name)
TDCJ-CID/ LEWIS UNIT
P.O. BOX 9000
(Address)
WOODVILLE, TEXAS 75990
(City, State, Zip Code)

(Phone Number)

i ’ •

QUESTION(S) PRESENTED

1. DID THE FEDERAL DISTRICT COURT ERRONEOUSLY CONCLUDE THAT
BO SHAFER'S IAC CLAIM REGARDING HIS TRIAL COUNSEL'S PER
.cz-:

FORMANCE DURING VOIR DIRE WAS WITHOUT MERIT?

2. DID THE FEDERAL DISTRICT COURT ERRONEOUSLY CONCLUDE THAT
SHAFER'S IAC CLAIM REGARDING
.a

T,

HIS TRIAL COUNSEL'S PERFORM­

ANCE AS TO THE OUTCRY WITNESS IS WITHOUT MERIT?

II.

rI

LIST OF PARTIES

[x] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
SHAFER V STATE, 2007 WL 716402, No.14-15-00372-CR (Tex.AppHouston[14th Dist.] 2017",np pet).

III.

;

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

HOWARD V STATE, 941 S.W.2d 102,108(Tex.Crim.App.1996)

Pg • 7,8

MORGIN V ILLINOIS, 504 U.S. 719,729(1992)

Pg • 8 .
Pg-8,9

STRICKLAND V WASHINGTON, 104 S.Ct. 2052 (1984)

STATUTES AND RULES
TEXAS CODE OF CRIMINAL PROCEDURE ARTICLE 38.072

OTHER

IV.

pg.10

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

.,2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

.3

STATEMENT OF THE CASE

A

REASONS FOR GRANTING THE WRIT

7

CONCLUSION

11

INDEX TO APPENDICES
APPENDIX A - FEDERAL DISTRICT COURT'S OPINION

APPENDIX B - FIFTH CIRUIT'S ORDER DENYING COA

APPENDIX C

00V1D-19 TIME EXTENSION BY U.S SUPREME COURT

APPENDIX D
APPENDIX E
APPENDIX F

'V;

4

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[X] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix _B
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

A

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[X| is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION
|X ] For cases from federal courts:
The date on which the United States Court of Appeals decided mv case
was February 22, 2021
F] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:____________
, and a copy of the
order denying rehearing appears at Appendix
lx] An extension of time to file the petition for a writ of certiorari was granted
to and including
150days (COVID-19 (date) on June 20,2021
(date)
in Application No.__ A_______
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
--------------------------------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

1. THE SIXTH AMENDMENT OF THE UNITED STATE'S CONSTITUTION:
EFFECTIVE ASSISTANCE OF COUNSEL.
2. THE FOURTEENTH AMENDMENT OF THE UNITED STATE!S CONSTITUTION:
DUE PROCESS.

3.

4

STATEMENT OF THE CASE
Bo Shafer was chargedawith the offense of icbhtiriudusasexaleabuse
of a child

to which he'd plead "not guilty" before a jury. (CR-69).

After hearing the evidence and arguments of counsel, a jury found
Sh4fer guilty as charged in the indictmen.(Tr.vol.l2,pg.4>. On March
18,2015, after a hearing on punishment, the jury sentenced shafer to
26 yrs imprisonment. (CR-26-27);(Tr.voI.13.pg.144-47).
On February 23,2017, the Fourteenth Court of Appeals affiemed
Shafer's conviction in an unpublished opinion.(see) Shafer v. State,
2007 WL 716402, No.14-15-00372-CR (Tex.App-H6uston[l4thDist] 20017,no
pet). Shafer did not file a petition for discrectionary review.
On February 6,2019, shafer filed an application for a state writ
of habeas corpus

challenging his conviction. The Criminal Court of

Appeals ultimately denied Shafer's application without a written order
based on the findings of fact made by the trial court on May 2,2018.
Shafer filed a Federal habeas corpus writ (2254) with the Southern
District of Texas Houston Division on May 8,2018, it was denied. Shafer
Shafer filed a notice of appeal with that court for a Certificate of
Appealability, which was denied on January 22,2021.
SUMMARY OF THE RELEVANT FACTS
bo Shafer along with his wife( Jennifer), attended his daughter's
cherleading recital on May 30,2014.(Tr.vol.10,pg.176-77).

Ashely who

is the compainant's mother, agreed to allow Shafer and Jennifer take
Hannah with them once the recital was over.(Tr.vol.8,pg.l51). The com­
plainant (Hannah) did not go home with her father (Shafer) which lead
to a heated argument between Shafer and Ashely. A motion for contempt

4.

Oi

of court was filed on the same morning of the cheerleading recital
by Shafer. The reason Shafer had filed the motion for comtempt of c
court was because, Ashely repeated violated;their custudt order re­
garding Hannah. (Tr.vol.6,pg.39-42).
Supposely, it was after the cheerleading recital that Hannah made
an outcry to her mother (Ashely) while at the Sonic Drive In.(Tr.vol.
6>Pg.39-42). Hannah was taken to the hospital as a result of her outcry, so that viginal examination could be done. The emergency room did
not find any medicalevidence consistant withaHarinah being sexually
assaulted.(Tr.vol.6,pg,148). Also

a CPS worker did a cursory exam

which affirmed there were no acute injuries.(tr.vol.6,pg.142).
Ultimately, Shafer was charged and indicted on October 20,2014,
for the offense of continuousssexual assault of a child, the indict­
ment allege that on March 1,2014, Shafer committed aggravated sexual
assault of the complainant (; Hannah). (CR-69).
At trial, the defense presented the jury with the following evidenceto show that Shafer was innocent of the allege charges that were
brought against him.: Dr. Wheeler was an obstetrician/ gynecology who
was an expert for the defense. Dr. Wheeler reviewed all of Hannah's
medical records and found "not one" shred of medical evidence to -sup­
port the allege allegations in this case. (Tr.vol.9,pg.118).

Besides

Dr. Wheeler, the defense called 10 friends and family members who test­
ified about Shafer's good character and trustworthiness with children.
For example, Ricky George , is a registered nurse and cousin of Shafer,
who testified that he did not believe Shafer had committed the crime or
offense. (Tr.vol.10,pg.19). There were no other evidence that came out
over the course of the trial to establish Shafer's guilt. Shafer's trial
counsel was able to show that Hannah's mother was a dishonest woman.
5.

Also, that Ashely had threaten to kill Shafer prior to the incident.
Ashely was resentful towards Shafer, because he had sent her mother to
prison for theft of his cheek book.(Tr.vol.8,pg.151). Shafer took the
stand in his own defense and testified that Ashely sent him a text
message at 6;50pm on the night of the recital. The text message said
that'She knew what he had done to Hannah.(Tr.vol.6,pg.106-107). Thr­
ough the testimony of Shafer it was revealed that the;cheerleading
recital had ended between the time of 7:00/7:30 which mean, Hannah
could not have made her outcry at the Sonis Drive In.(Tr.vol.10,pg.ISO181).
The state presented the testimony of Hannah during the innocent
and guilt-phase of trial. She basically testified that she did not
know , the things her father had done were bad to her.(Tr.vol.6,pg.53).
Shafer wanted to bring evidence before the jury that Hannah had been
expose tp porngraphy as well as, found naked under another girl who
lived next door, but the state filed a motion to In limine which the
court had granted. And because the motion was granted, Shafer was not
able to mention anything about the encounter Hannah had with the girl
next door or about the porngraphy.(Tr.vol.10,pg.151-152). This made it
difficult the sexual conduct that she alleged.(Tr.vol.2,pg.16).
There were evidence in this case that the jury did not get to hear
which would have clearly showed that Shafer was not- guilty of this
crime. For instance, the outcry was not made at the Sonic Drive In,
because the GPS placed Hannah and her mother at the cheerleading re­
cital. Also, there were Shafer's work time sheets that place him at
him at work during the times Hannah claim she was exually assaulted.
Unfortunately, the jury found Shafer guilty and assessed punishmentat 26 years in TDCJj^Institutional Division. (CRj^26).
6.

REASONS FOR GRANTING THE PETITION
This writ of certiorari should be granted for the following
reasons:
1. THE FEDERAL DISTRICT COURT ERRONEOUSLY CONCLUDED THAT
BO SHAFER'S IAC CLAIM REGARDING HIS TRIAL COUNSEL'S
PERFORNANCE*DURING VOIR DIRE WAS WITHOUT MERIT.
First, the State and the Federal Habeas Court in this case
fail to entertain:Bo/Shafer's motion.for evidentiary hearing which
made the Habeas record incomplete, because trial counsel did not
answer to the IAC claims that were brought against him. At the bare
minimum, the Federal District Court should have ordered trial counsel
to answer.the allegations by affidavit. Rather, the Federal District
Court based its conclusion on an assumption. It's uncertain whether
trial counsel's omission was apart of some trial strategy without
hearing from trial counsel himself.
Bo Shafer's trial counsel had an obligated duty to question these
prosective :jurors who did not believe that a child can be

easy influ­

enced/ in making up allegations of sexual abuse. The Court in Howard
held: "a defendant requires the guiding hand of counsel at every step
of the proceeding", (see) Howard v State, 941 S.W.2d 102,108 (Tex.Crim.
App.1996).
Nonrtheless, Bo Shafer's counsel fail to provide him with the
necessary guiding hand that was needed jury selection, because venire
members 14,16,17 and;23 had all became jurors without being questioned
if they could set aside their tendency to believe a child would not lie
about being sexually abused and judge Bo shafer's case on its own facts.

7.

Those venire members had favored the prosecution before the trial
had began. Bo Shafer's defense at trial was that the complainat's
mother had pressured her to make up false allegations that her
father (Bo Shafer) had sexualy assaulted her.(see)(Doc.18,pg.6).
Trial counsel deprived Bo Shafer of an adequate voir dire in
odder to identify those venire members who were unqualified to be
jurors.(see) Morgin v. Illinois, 504 U.S. 719,729 (1992.

Gauging

trial counsel's perfomance according to what was said in Morgin, it's
clear to see that counsel's perforance was deficient for not using
his peremptory strikes or challenge for cause those who were willing
to believe the complainat would not lie about being sexually abused.
The Strickland's test was demonstrated by Bo shafer in both his
staterand federal writ of habeas corpus. In the process showed the
Habeas Courts how his trial counsel's perfomance was deficient.
Moreover, Bo Shafer showed how that deficient performance had perjudic::6.
iced him during jury selection, (see) State memorandum in support of
11.07 Habeas Corpus writ,pg.6).
The recommendation that was made was incorrect, because Bo Shafer's
IAC claim is not without merit as the Habeas j;udge concluded, (see)
(magistrate judge's recommendation,pg.6-9).
Thus, the persumption of correctness that is owed to the state
Habeas Court's findings.,of fact should not apply in this case,because
the Habeas record is incomplete since it does not possess an answer
from trial counsel as to his reasoning behind failing to strike those
venire members who favored the prosecution.
Therefore, this Honorable Court should issue a writ of certiorari
on the basis that Bo Shafer has shown
ance of counsel.
8.

a denial of ineffective assist-:*^

2. THE FEDERAL DISTRICT COURT ERRONEOUISLY CONCLUDED THAT
SHAFER'S IAC CLAIM REGARDING HIS TRIAL COUNSEL'S PER^
FORMANCE AS TO THE OUTCRYLWITNESS WAS OUT MERIT.
As the previous issue, the State and Federal Habeas

Court in

this case fail to entertain Bo .Shafer's motion for evidentiary hear­
ing which made the Habeas record incomplete, because trial counsel
did not answer to the IAC claims~that were brought against him. At
the bare minimum, the Federal District Court should have ordered
trial counsel to answer the allegations by affidavit.

Rather, the

Federal District Court based its conclusion on an assumption. It's
uncertain whether trial counsel's ommission was apart of some trial
strategy decision without hearing from trial counsel himself.
The outcry evidence in this case was inadmissible, since it did
not meet the requirements of the Texas Code of Criminal Procedures
Article 38.072. Ineffective:counsel 'was shown by B6 Shafer in;: accord­
ance to the two prong test that is found in Strickland v Washington,
104 S.Ct. 2052 (1984).(see) Memorandum in support of Bo Shafer's
State Habeas Corpus writ,pg.6-9). The persumption of correctness
should not have applied to the State findings of fact, because the
Habeas record was in complete in regards to trial counsel s answer
concerning this IAC Claim.

Trial counsel never got the opportunity

to explain why he did not object to the state using this inadmissrible outcry evidence.
According to the magistrate judge; he basically agreed with
Bo Shafer that trial counsel's perfomance was deficient for failing
to object to the outcry testimonyin this case, (see)(Magistrate judge's
recommendation,pg.10). however, the magistrate judge does not believe
that Bo shafer was able to meet the second prong of the Strickland's
9.

test by showing perjudice. Because trial counsel fail to object to
the inadmissible outcry evidence, it prejudice Bo Shafer's defense.
The State was allowed to use the inadmissible outcry testimony/from
the compainant s mother in order to bolster the complainant's test­
imony during trial. And as a result,Bo Shafer's defense was prejud­
iced, especially since Bo Shafer's defense was that the mother of
the complainant pressed her to make up false allegations that Bo Shafer
had sexually assaulted her. The complainant's credibility was vital
to the prosecution >in obtaining a conviction against

Bo Shafer.

The evidence in this case was basically nothing more than,"he say she
say that came down to credibilty. Nevertheless,the assessment made by
the magistrate judge regarding the second prong ■of the Strickland's
test was unreasonable. Clearly, Bo Shafer's was prejudiced by the
State using the complainant's mother's outcry testimony. The impact
of a mother's testimony about her daughter being sexually abused is
powerful and this evidence alone is enough to move a jury mentally
and emotionally. The prejudice in this case was overwhelming to the
point that Bo Shafer did not receive a fair trial. Obviously the
magistrate judge got it wrong, because trial counsel's deficient per­
formance allowed the State to use a powerful piece of evidence against
his client.
Thus, had trial counsel made the necessary objection

then the

trial court would have committed error by admitting an outcry test­
imony that did not meet the requirements of Texas Code of Criminal
Procedures Article 38.072.
Therefore, Bo Shafer request this Honorable Court to grant this
writ of certiorari on the basis that the Federal District Court was
wrong in concluding that Bo Shafer did not showwprejudice.

10.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

11.

n

